BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Brian
Russell Turner v. The State of Mississippi, was sent via
Next Day Service to the U.S. Supreme Court, and via
e-mail service to the following parties listed below, this
23rd day of August, 2021:
Lynn Fitch
Attorney General of Mississippi
Scott Stuart
Special Assistant Attorney General
P.O. Box 220
Jackson, Mississippi 39205-0220
(601) 359-4270
scott.stuart@ago.ms.gov

Counsel for Respondent
Robert L. Sirianni, Jr.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-204 7
(407) 388-1900
robertsirianni@brownstonelaw.com

Counsel for Petitioner

, BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
, www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 23, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ~ f ~ c J 3 / c)Od(

d,4- tL ~

Notary Public
[seal]

